HHS/OIG-Audit--"Follow-up on Audits of Grants Made by the Office of Community Services, (A-12-92-00043)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Follow-up on Audits of Grants Made by the Office of Community Services,"
(A-12-92-00043)
April 13, 1993
Complete
Text of Report is available in PDF format (918 kb). Copies can also
be obtained  by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This final follow-up report presents results on actions taken in response to
our earlier audits of four grants awarded by the Office of Community Services
(OCS). Effective action was not taken on monetary disallowances, and OCS needs
to improve oversight of grantee actions regarding non-monetary recommendations.
Our review found that over $1.0 million in funds related to these grants either
remain unexpended by the grantee or relate to questionable expenditures that
require further documentation to resolve whether the expenses claimed are allowable.